No. 19A______
IN THE
SUPREME COURT OF THE UNITED STATES
________________________
IN RE: CHARLES T. FOTE,
Applicant.
_________________________
APPLICATION TO THE HONORABLE JOHN G. ROBERTS, JR. FOR
AN EXTENSION OF TIME TO FILE A PETITION
FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
_________________________
JASON C. WHITE
MORGAN, LEWIS & BOCKIUS LLP
77 W. Wacker Drive, Ste. 500
Chicago, IL 60601

WILLIAM R. PETERSON
Counsel of Record
MORGAN, LEWIS & BOCKIUS LLP
1000 Louisiana St., Ste. 4000
Houston, TX 77002
(713) 890-5188
william.peterson@morganlewis.com
JULIE S. GOLDEMBERG
MORGAN, LEWIS & BOCKIUS LLP
1701 Market St.
Philadelphia, PA 19103

Counsel for Applicant

APPLICATION FOR EXTENSION OF TIME
In accordance with Rules 13.5, 22, and 30.3 of the Rules of this Court, Applicant Charles T. Fote respectfully request a 30-day extension of time, to and including
March 11, 2020, within which to file a petition for a writ of certiorari to the United
States Court of Appeals for the Federal Circuit to review the judgment in this case.
The court of appeals entered its judgment on November 12, 2019. Unless extended,
the time within which to file a petition for a writ of certiorari will expire on February
10, 2020. The jurisdiction of this Court would be invoked under 28 U.S.C. 1254(1).
The decision of the court of appeals (attached as Exhibit A) is unreported.
1.

In the decision below, an appeal from a decision of the Patent Trial and

Appeal Board that found proposed patent claims patent-ineligible, the Federal Circuit summarily affirmed without providing a written opinion per Federal Circuit Rule
36, “Judgment of Affirmance Without Opinion.”
2.

Applicant and Petitioner Charles T. Fote plans to challenge the propri-

ety of a federal court of appeals affirming, without opinion, an administrative
agency’s decision that presents difficult questions of patent eligibility under 35 U.S.C.
§ 101.
3.

The petition for certiorari will contend that in cases like this one, where

the administrative agency arguably erred in its analysis of the proposed patent claims
and failed to properly apply the law, the use of one-word summary affirmances under
Federal Circuit Rule 36, which effectively prevents review of the merits of the panel
decision en banc or by this Court, is impermissible.

1

4.

Applicant respectfully requests a 30-day of extension of time to prepare

and print the petition in this case. Between the Federal Circuit’s judgment and the
current deadline of February 10, 2020, Applicant’s counsel have had numerous other
pressing professional and personal obligations.
5.

In compliance with Rule 13.5, Applicants make this application more

than 10 days before the due date
6.

No prejudice would result from granting the extension.

For all these reasons, Applicant respectfully requests that the due date for his
petition for writ of certiorari be extended by 30 days, to and including March 11, 2020.
Respectfully submitted,
/s/ William R. Peterson
WILLIAM R. PETERSON
Counsel of Record
MORGAN, LEWIS & BOCKIUS LLP
1000 Louisiana St., Ste. 4000
Houston, TX 77002
(713) 890-5188
william.peterson@morganlewis.com

JASON C. WHITE
MORGAN, LEWIS & BOCKIUS LLP
77 W. Wacker Drive, Ste. 500
Chicago, IL 60601

JULIE S. GOLDEMBERG
MORGAN, LEWIS & BOCKIUS LLP
1701 Market St.
Philadelphia, PA 19103
January 21, 2020

Counsel for Applicant

2

